TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Five Fair Tax Collection Practices Violations
                     Resulted in Administrative Actions in
                              Calendar Year 2006



                                      September 21, 2007

                              Reference Number: 2007-10-188




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2007


 MEMORANDUM FOR CHIEF COUNSEL
                CHIEF HUMAN CAPITAL OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Five Fair Tax Collection Practices Violations
                               Resulted in Administrative Actions in Calendar Year 2006
                               (Audit # 200710020)

 This report presents the results of our review of the Fair Tax Collection Practices1 (FTCP)
 violations that resulted in administrative actions in Calendar Year 2006. The overall objective of
 this review was to obtain information on any Internal Revenue Service (IRS) administrative or
 civil actions resulting from FTCP violations by IRS employees. Section 1102 (d)(1)(G) of the
 IRS Restructuring and Reform Act of 19982 requires the Treasury Inspector General for Tax
 Administration to include in one of its Semiannual Reports to Congress information regarding
 any administrative or civil actions related to FTCP violations.

 Impact on the Taxpayer
 The abuse or harassment of taxpayers by IRS employees while attempting to collect taxes
 reflects poorly on the IRS and can have a negative impact on voluntary tax compliance. We
 determined, for Calendar Year 2006, there were five cases involving an FTCP violation for
 which the employee received administrative disciplinary action. However, the IRS computer
 system contained a high percentage of cases that were miscoded as FTCP violations when they
 did not involve these types of violations. Inaccurate data on the number of FTCP violations can
 impede IRS management’s efforts to detect and correct customer service problems that burden
 taxpayers.


 1
  26 U.S.C. Section 6304 (2004).
 2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                     Five Fair Tax Collection Practices Violations Resulted in
                           Administrative Actions in Calendar Year 2006




Synopsis
The FTCP prohibit employees from using abusive or harassing behavior toward taxpayers when
attempting to collect taxes. Employees who are found to have violated the FTCP could be
subject to disciplinary action. In Calendar Year 2006, the IRS classified as FTCP violations
10 collection cases that were substantiated and resulted in an administrative action against the
employees. However, 8 of the 10 cases were incorrectly coded, leaving just 2 cases that were
properly classified as FTCP violations. In addition, we identified 15 other cases that were
incorrectly coded as FTCP violations because the employees were not in a collection-related
job series.
Because of the high number of miscoded cases, we also reviewed all 163 additional cases in
6 other case categories to determine whether there were other cases that should have been coded
as FTCP violations. We identified three additional cases that should have been classified as
FTCP violations but instead had been classified only as “Unprofessional Conduct.” Combined
with the previously mentioned two cases that were correctly coded, there were a total of five
FTCP violations that resulted in an administrative action against the offending employees.
Incorrect information on FTCP violations can impede management’s efforts to identify and
correct this type of behavior.
We believe the coding errors occurred because, while the labor relations staff who work these
cases must input to the Automated Labor and Employee Relations Tracking System (ALERTS)
at least one issue code for each case, they are not required to input all issue codes that may apply.
In addition, the distinction between unprofessional conduct and behavior that rises to the level of
an FTCP violation is not clearly explained in the guidance provided to the labor relations staff.
No civil actions resulted in the IRS paying monetary settlements to taxpayers because of an
FTCP violation.

Recommendations
We recommended the Chief Human Capital Officer clarify the guidance provided to the labor
relations staff to ensure the correct issue codes, including multiple codes where appropriate, are
input to the ALERTS and clarify the distinction between unprofessional behavior and the types
of behavior and circumstances that rise to the level to be coded as FTCP violations. We also
recommended the Chief Human Capital Officer ensure the issue codes for the 26 cases we
identified as being miscoded are corrected (8 incorrectly coded collection cases, 15 noncollection
cases, and 3 unprofessional conduct cases that should have been coded as FTCP violations).




                                                                                                   2
                    Five Fair Tax Collection Practices Violations Resulted in
                          Administrative Actions in Calendar Year 2006




Response
The Chief Human Capital Officer agreed with our findings and recommendations and stated that
steps have been taken to implement our recommendations. A draft notice explaining our audit
results has been prepared and will be sent to the labor relations staff. In addition, management
will institute a quarterly review of the FTCP issue codes as a temporary measure until validation
routines are hard coded into the ALERTS. Management stated the 26 cases we identified as
being miscoded have been corrected, and FTCP issue codes input to the ALERTS from other
systems will be validated quarterly. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                3
                            Five Fair Tax Collection Practices Violations Resulted in
                                 Administrative Actions in Calendar Year 2006




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Fair Tax Collection Practices Violations Were Not
          Accurately Reported .....................................................................................Page 3
                    Recommendations 1 and 2: ....................................................... Page 4

          No Fair Tax Collection Practices Civil Actions Resulted in
          Monetary Settlements to Taxpayers ...................................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Fair Tax Collection Practices Provisions ..............................Page 11
          Appendix VI – Fair Tax Collection Practices Violation Issue Codes ..........Page 12
          Appendix VII – Management’s Response to the Draft Report.....................Page 13
         Five Fair Tax Collection Practices Violations Resulted in
              Administrative Actions in Calendar Year 2006




                     Abbreviations

ALERTS         Automated Labor and Employee Relations Tracking System
FTCP           Fair Tax Collection Practices
IRS            Internal Revenue Service
                         Five Fair Tax Collection Practices Violations Resulted in
                              Administrative Actions in Calendar Year 2006




                                             Background

Section (§) 1102 (d)(1)(G) of the Internal Revenue Service (IRS) Restructuring and Reform Act
of 19981 requires the Treasury Inspector General for Tax Administration to include in one of its
Semiannual Reports to Congress information regarding any administrative or civil actions related
to violations of the Fair Tax Collection Practices (FTCP) listed in 26 U.S.C. § 6304.2 The
Treasury Inspector General for Tax Administration Semiannual Report to Congress must provide
a summary of such actions and include any judgments or awards granted.
As originally enacted, the Fair Debt Collection Practices Act3 included provisions that restricted
various collection abuses and harassment in the private sector. These restrictions did not apply
to Federal Government practices. However, Congress believed it was appropriate to require the
IRS to comply with applicable portions of the Fair Debt Collection Practices Act and to be at
least as considerate to taxpayers as private creditors are required to be with their customers. The
abuse or harassment of taxpayers by IRS employees while attempting to collect taxes reflects
poorly on the IRS and can have a negative impact on voluntary tax compliance. Thus, § 3466(a)
of the IRS Restructuring and Reform Act of 1998 required the IRS to follow FTCP that are
similar to the Fair Debt Collection Practices Act provisions (see Appendix V for a detailed
description of the FTCP provisions). Employees found to have engaged in any of the prohibited
practices stated in the provisions will have committed an FTCP violation.
Taxpayer complaints about IRS employees’ conduct can be reported to several IRS functions for
tracking on management information systems. If a taxpayer files a civil action or if IRS
management determines the taxpayer’s rights related to FTCP were potentially violated, the
complaint could be referred and then tracked on one or both of the following IRS systems:
    •    Chief Human Capital Officer Workforce Relations Automated Labor and Employee
         Relations Tracking System (ALERTS), which generally tracks employee behavior that
         may warrant IRS management administrative actions.
    •    Office of Chief Counsel Counsel Automated System Environment, which is an inventory
         control system that tracks items such as taxpayer civil actions.
The IRS began tracking FTCP violation issue codes on the ALERTS in March 19994 and on the
Counsel Automated System Environment in June 1999. For this review, we analyzed closed


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  26 U.S.C. § 6304 (2004).
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
4
  See Appendix VI for a description of the ALERTS FTCP violation issue codes.
                                                                                                              Page 1
                        Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2006



cases for Calendar Year 2006 from the ALERTS and the Counsel Automated System
Environment to identify violations of the FTCP. To be an FTCP violation that the Treasury
Inspector General for Tax Administration is required to report, the action must have been taken
by an IRS employee who was involved in some type of collection activity and who received
some type of disciplinary action considered to be an administrative action. We determined that
usually only those employees in the job series listed below will be engaged in collection-related
activities:
    •   Tax Specialist – Job Series 0526.
    •   Tax Examiner – Job Series 0592.
    •   Contact Representative – Job Series 0962.
    •   Revenue Officer – Job Series 1169.
The law itself does not provide an explanation of what is meant by “administrative actions.” We
used the IRS’ definition of a disciplinary action when determining the number of violations to be
reported under IRS Restructuring and Reform Act of 1998 § 1102 (d)(1)(G). The IRS’ definition
of a disciplinary action ranges from a letter of admonishment through removal.
However, we did not determine whether the cases recorded on the ALERTS constitute all FTCP
violations. For example, oral or written counseling is not considered an administrative action
under the IRS’ definition. Because the IRS does not routinely track on the ALERTS informal
oral counseling or minor actions against its employees, it is not possible to determine how often,
and for what reasons, informal oral counseling or other minor disciplinary actions occurred. The
scope of our audit was not intended to determine the accuracy or consistency of disciplinary
actions taken against IRS employees. Also, this audit did not address taxpayer complaints
related to collection activities taken by private collection agencies hired by the IRS,5 as these
would involve contractor employees (not IRS employees) and would not be included in a
Treasury Inspector General for Tax Administration Semiannual Report to Congress. A separate
audit of the private collection agencies is in process.6
This review was performed at the IRS Human Capital and Chief Counsel offices in the IRS
National Headquarters in Washington, D.C., during the period April to July 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




5
  The American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004), allows the IRS to hire
private collection agencies to help collect Federal tax debts.
6
  Private Debt Collection Phase III (Audit # 200730009).
                                                                                                          Page 2
                     Five Fair Tax Collection Practices Violations Resulted in
                          Administrative Actions in Calendar Year 2006




                                Results of Review

Fair Tax Collection Practices Violations Were Not Accurately
Reported
In Calendar Year 2006, the IRS classified as FTCP violations 10 collection cases that were
substantiated and resulted in an administrative action against the employees. However, 8 of the
10 cases were incorrectly coded, leaving just 2 cases that were properly classified as FTCP
violations. Of the eight cases incorrectly coded, six involved employees not engaged in a
collection-related activity, and two did not involve a taxpayer or a taxpayer representative.
These conditions must be met for an action to be considered an FTCP violation. In addition, we
identified 15 other cases coded as FTCP violations that involved employees who were not in a
collection-related job series. These 15 cases should not have been coded as FTCP violations
because FTCP violations must involve collection activity.
Because of the high number of miscoded cases, we also reviewed all 163 additional cases in
6 other case categories involving employee misconduct allegations, including those coded as
either “Unprofessional Conduct” or “Not Otherwise Coded,” to determine whether any of these
cases should have been coded as FTCP violations. We identified three additional cases with
administrative actions that should also have been classified as FTCP violations but instead had
been classified only as “Unprofessional Conduct.” In these cases, the IRS employees used
obscene or profane language while interacting with taxpayers on collection-related issues, which
is an FTCP violation. Inaccurate information on FTCP violations can impede management’s
efforts to effectively identify and correct customer service problems that unnecessarily burden
taxpayers.
The miscoding may have occurred for two reasons. First, labor relations staff in the Workforce
Relations Branch who process these cases are required to input to the ALERTS database at least
one issue code for each case; however, they are not required to input all issue codes that may
apply. Second, the distinction between unprofessional conduct and behavior that meets the
FTCP violations criteria is not clearly explained in the guidance provided to the labor relations
staff. It is important that the data in the ALERTS are accurate so IRS management can detect
any problems or trends that may exist, properly address them, and minimize poor interactions
between IRS employees and taxpayers. Additionally, the ALERTS is the data source for reports
provided to a number of oversight offices and at times is the basis for information provided to
Congress on legislation affecting the IRS.




                                                                                           Page 3
                          Five Fair Tax Collection Practices Violations Resulted in
                               Administrative Actions in Calendar Year 2006



The employees involved in the five cases we determined to be FTCP violations with
administrative actions received disciplinary actions including written reprimands, unpaid
suspensions, and resignations in lieu of removal.

Recommendations
Recommendation 1: The Chief Human Capital Officer should clarify the guidance provided
to the labor relations staff to ensure:
      •    The correct issue codes, including multiple codes where appropriate, are input to the
           ALERTS.
      •    The difference between unprofessional behavior and the types of behavior and
           circumstances that rise to the level of an FTCP violation are clearly explained so
           employees know when to apply the various codes.
           Management’s Response: The Chief Human Capital Officer agreed with the
           recommendation and stated a draft notice explaining our audit results has been prepared
           and will be sent to the labor relations staff. In addition, management will institute a
           quarterly review of the FTCP issue codes as a temporary measure until validation
           routines are hard coded into the ALERTS.
Recommendation 2: The Chief Human Capital Officer should correct the issue codes on the
15 cases coded as FTCP violations but not worked by Collection function staff, the 8 collection
cases incorrectly coded as FTCP violations, and the 3 unprofessional conduct cases that should
have been coded as FTCP violations.
           Management’s Response: The Chief Human Capital Officer agreed with the
           recommendation and reported that the cases we identified have been corrected.
           Additionally, FTCP issue codes input to the ALERTS from other systems will be
           validated quarterly.

No Fair Tax Collection Practices Civil Actions Resulted in Monetary
Settlements to Taxpayers
Internal Revenue Code § 74337 provides that a taxpayer may bring a civil action for damages
against the Federal Government if an officer or employee of the IRS recklessly or intentionally,
or by reason of negligence, disregards any provision of the Internal Revenue Code, or related
regulation, in connection with the collection of Federal tax.

7
    26 U.S.C. § 7433 (2007).



                                                                                                Page 4
                    Five Fair Tax Collection Practices Violations Resulted in
                         Administrative Actions in Calendar Year 2006



There were no cases closed on the Counsel Automated System Environment in Calendar
Year 2006 for which the IRS paid damages to taxpayers resulting from a civil action filed due to
an FTCP violation.




                                                                                          Page 5
                       Five Fair Tax Collection Practices Violations Resulted in
                            Administrative Actions in Calendar Year 2006



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on any IRS administrative or civil
actions resulting from FTCP1 violations by IRS employees. To accomplish our objective, we:
I.      Identified the number of FTCP violations resulting in administrative actions.
        A. Obtained from the ALERTS2 a computer extract of 39 cases opened after July 22, 1998,
           with an Issue Code of 141 to 147, and closed during the period January 1 through
           December 31, 2006. We analyzed the ALERTS extract and obtained additional case file
           information from the Labor Relations function, when needed, to determine the type of
           violation.
        B. Determined if any cases involving FTCP violations resulted in administrative actions.
            1. Reviewed the final disposition code for the cases involving FTCP violations.
            2. Determined if any cases resulted in a disciplinary action of at least admonishment.
            3. Reviewed case file information from the Labor Relations function, when necessary,
               to ensure the violations resulting in administrative actions occurred after
               July 22, 1998, and to determine whether the Collection function employee was
               dealing directly with a taxpayer (or representative) and was performing a function
               involving the collection of taxes, which would qualify as an FTCP violation.
        C. Obtained from the ALERTS a computer extract of 163 cases opened after July 22, 1998,
           and closed during the period January 1 through December 31, 2006, with the following
           Issue Codes:
                •   013 (Position/Authority Misuse - limited to only those closed with a
                    disposition code of 009 or higher).
                •   020 (Fighting, Assaults, and Threats - limited to only those closed with a
                    disposition code of 009 or higher).
                •   058 (Unprofessional Conduct - limited to only those closed with a disposition
                    code of 009 or higher).



1
 26 U.S.C. Section 6304 (2004).
2
 The Office of Workforce Relations ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
                                                                                                    Page 6
                        Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2006



                 •   114 (Conviction Assault/Battery - all disposition codes).
                 •   119 (Threat of Audit/Personal - all disposition codes).
                 •   999 (Not Otherwise Coded - limited to only those closed with a disposition
                     code of 009 or higher).
            We analyzed the ALERTS extract and determined if any of the cases in these categories
            were miscoded and should have been coded as FTCP violations. When needed, we
            obtained additional case file information from the Labor Relations function to determine
            the reason for the miscoding and final resolution of the case.
            Note: We did not attempt to independently validate the accuracy of the complete
            ALERTS database for this audit. We limited our work to only assessing the accuracy
            of the issue codes for those cases that met our criteria as listed in Steps I.A. through
            I.C. As stated in the Results of Review, we found some of the issue codes in the
            ALERTS database were not accurate.
II.     Identified the number of FTCP violations resulting in IRS civil actions (judgments or
        awards granted) by requesting from the Counsel Automated System Environment3 database
        a computer extract of any Subcategory 6304 (established to track FTCP violations) cases
        opened after July 22, 1998, and closed during the period January 1 through
        December 31, 2006. There were no Subcategory 6304 cases on the System. The Counsel
        Automated System Environment is the Office of Chief Counsel management information
        system and source for inventory information. Due to time constraints, we did not conduct
        validation tests of this System. The Calendar Year 2006 data were consistent with those of
        past years, and there is less risk that cases were misclassified because qualified attorneys
        were deciding if each case met the legal definition of an FTCP violation. For these reasons,
        we considered the data’s reliability as undetermined but suitable for use in this report.




3
  The Counsel Automated System Environment is an Office of Chief Counsel inventory control system that tracks
items such as taxpayer civil actions or bankruptcies.
                                                                                                        Page 7
                   Five Fair Tax Collection Practices Violations Resulted in
                        Administrative Actions in Calendar Year 2006



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin P. Riley, Audit Manager
William E. Thompson, Lead Auditor
Joseph P. Smith, Senior Auditor
James M. Allen, Information Technology Specialist




                                                                                        Page 8
                   Five Fair Tax Collection Practices Violations Resulted in
                        Administrative Actions in Calendar Year 2006



                                                                   Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief Counsel CC
                 Chief Human Capital Officer OS:HC




                                                                           Page 9
                        Five Fair Tax Collection Practices Violations Resulted in
                             Administrative Actions in Calendar Year 2006



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 26 ALERTS1 records (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed the 39 FTCP complaints closed on the ALERTS during the period January 1
through December 31, 2006, and determined:
    •   Fifteen cases were not worked by employees in a collection jobs series2 and should not
        have been coded as FTCP violations.
    •   Eight cases classified as FTCP violations by employees in a collection job series were
        incorrectly coded.
We also reviewed 163 additional cases in 6 other case categories closed on the ALERTS during
the period January 1 through December 31, 2006, involving employee misconduct allegations
and determined 3 cases classified as unprofessional behavior should have been classified as
FTCP violations.




1
  The Office of Workforce Relations ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
2
  Tax Specialist – Job Series 0526; Tax Examiner – Job Series 0592; Contact Representative – Job Series 0962;
Revenue Officer – Job Series 1169.
                                                                                                         Page 10
                         Five Fair Tax Collection Practices Violations Resulted in
                              Administrative Actions in Calendar Year 2006



                                                                                                  Appendix V

              Fair Tax Collection Practices Provisions

To ensure equitable treatment among debt collectors in the public and private sectors, the IRS
Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions of the
Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with taxpayers
in connection with the collection of any unpaid tax:
    •    At unusual or inconvenient times.
    •    If the IRS knows that the taxpayer has obtained representation from a person authorized
         to practice before the IRS, and the IRS knows or can easily obtain the representative’s
         name and address.
    •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
         communication is prohibited.
Further, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
    •    Use or threat of violence or harm.
    •    Use of obscene or profane language.
    •    Causing a telephone to ring continuously with harassing intent.
    •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  15 U.S.C. Sections 1601 note, 1692-1692o (2000).
                                                                                                              Page 11
                       Five Fair Tax Collection Practices Violations Resulted in
                            Administrative Actions in Calendar Year 2006



                                                                                         Appendix Vl

    Fair Tax Collection Practices Violation Issue Codes

    Issue Code                                         Description
       141       UNUSUAL CONTACT WITH TAXPAYER – Contacting a taxpayer before
                 8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                 known or which should be known to be inconvenient to the taxpayer.
       142       DIRECT CONTACT WITH TAXPAYER WITHOUT REPRESENTATIVE
                 CONSENT – Contacting a taxpayer directly without the consent of the
                 taxpayer’s Power of Attorney.
       143       CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                 Contacting a taxpayer at their place of employment when it is known or should
                 be known that the taxpayer’s employer prohibits the taxpayer from receiving
                 such communication.
       144       HARASSMENT/ABUSE USE/THREAT OF USE – Conduct which is intended
                 to harass or abuse a taxpayer, or conduct which uses or threatens to use violence
                 or harm.
       145       USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                 or profane language toward a taxpayer.
       146       CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                 taxpayer’s telephone to ring continuously with harassing intent.
       147       PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                 DISCLOSURE – Contacting a taxpayer by telephone without providing a
                 meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Manual (April 2007).1




1
 The Office of Workforce Relations ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
                                                                                                    Page 12
      Five Fair Tax Collection Practices Violations Resulted in
           Administrative Actions in Calendar Year 2006



                                                     Appendix VlI

Management’s Response to the Draft Report




                                                             Page 13
Five Fair Tax Collection Practices Violations Resulted in
     Administrative Actions in Calendar Year 2006




                                                       Page 14
Five Fair Tax Collection Practices Violations Resulted in
     Administrative Actions in Calendar Year 2006




                                                       Page 15
